ss E-Mail Address: 775 H Street, N.E.
Est ea) briefs@wilsonepes.com Washington, D.C. 20002

WAR PG

Web Site: Tel (202) 789-0096
SOA www.wilsonepes.com Fax (202) 842-4896
No. 20-1158

THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INC.,

Petitioner,
v.

WILL MCRANEY,
Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on March 18, 2021, three (3) copies of the MOTION FOR LEAVE TO
FILE AND BRIEF FOR AMICI CURIAE THE ETHICS & RELIGIOUS LIBERTY COMMISSION
OF THE SOUTHERN BAPTIST CONVENTION; THE CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS; THE NATIONAL ASSOCIATION OF EVANGELICALS; THE
LUTHERAN CHURCH - MISSOURI SYNOD; CHURCH OF GOD IN CHRIST, INC.;
CHRISTIAN LEGAL SOCIETY; JEWISH COALITION FOR RELIGIOUS LIBERTY; AND THE
ISLAM & RELIGIOUS FREEDOM ACTION TEAM OF THE RELIGIOUS FREEDOM
INSTITUTE IN SUPPORT OF PETITIONER in the above-captioned case were served, as
required by U.S. Supreme Court Rule 29.5(c), on the following:

MATTHEW THEODORE MARTENS WILLIAM HARVEY BARTON IT
WILMERHALE BARTON LAW FIRM, PLLC
1875 Pennsylvania Avenue, NW 3007 Magnolia Street
Washington, DC 20006 Pascagoula, MS 39567
(202) 663-6000 (228) 769-2070
Counsel for Petitioner, Counsel for Respondent,

The North American Mission Board Will McRaney

of the Southern Baptist Convention, Inc.

The following email addresses have also been served electronically:

matthew.martens@wilmerhale.com

harvey@wbartonlaw.com
sgunnarson@kmclaw.com fe / W ye
ROBYN DORSEY WILLIS
WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.
Washington, D.C. 20002

(202) 789-0096
Sworn to and subscribed before me this 18th day of Maych 2021.
‘ fae

 

District of Columbia
My commission expires April 14, 2022.

 
